No. 19A545

IN THE

Supreme £ourt of the Initeb States
DONALD J. TRUMP; THE TRUMP ORGANIZATION, INC.; TRUMP ORGANIZATION LLC; 'THE
TRUMP CORPORATION; DJT HOLDINGS LLC; THE DONALD J. TRUMP REVOCABLE
TRUST; AND TRUMP OLD POST OFFICE LLC,
V.

Applicants,

MAZARS USA, LLP; COMMITTEE ON OVERSIGHT AND REFORM OF THE
U.S. HOUSE OF REPRESENTATIVES,

Respondents.

On Application for Stay of the Mandate of the United States Court of Appeals for
the District of Columbia Circuit
CERTIFICATE OF SERVICE

I, Jennifer S. Windom, a member of the Bar of this Court, hereby certify that
on this 21st day of November, 2019, I caused to be served by overnight carrier one
copy of the Opposition to Emergency Application for a Stay of Mandate on each of
the following counsel:
William S. Consovoy
Jordan M. Call
Consovoy McCarthy PLLC
1600 Wilson Blvd., Ste. 700
Arlington, VA 22209
(703) 243-9423
will@consovoymccarthy.com
Party names:
Donald J. Trump;
The Trump Organization, Inc.;
Trump Organization LLC;
The Trump Corporation;

DJT Holdings LLC;
The Donald J. Trump Revocable Trust;
Trump Old Post Office LLC
Jerry D. Bernstein
Inbal P. Garrity
Blank Rome LLP
1271 Avenue of the Americas
New York, NY 10020
(212) 885-5000
jbernstein@blankrome.com
igarritv@blankrome.com
Party name: Mazars USA, LLP
I further certify that all parties required to be served have been served.

November 21, 2019

